No 19 -____
IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL S. BARTH
PETITIONER,
V.
BERNARDS TOWNSHIP PLANNING
BOARD, ETAL.,
RESPONDENDTS.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEW JERSEY SUPREME COURT
CERTIFICTAE OF COMPLIANCE AND PROOF OF SERVICE
Certificate of Compliance
I, Michael S. Barth herby certify that relying on the Microsoft Word
FEATURE THAT THE LENGTH OF THE PETITION IN THE ABOVE REFERENCED MATTER
COMPLIES WITH THE 9,000 WORD LIMITATION.

Proof of Service
I, Michael S. Barth hereby declare that on this day July 15,2020 that 40
copies of this Petition for Writ of Certiorari was mailed to the United States
Supreme Court and that three (3) copies of the same was mailed on this day
U.S. Postal Certified Mail to:
7018 0360 0001 1648 6351
Brent R. Polman, Esq.
Methfessel & Werbel, Esqs.
P.O. Box 3012
Edison, NJ 08818
Respe

1MITT,

i
'H
MIC
P.O. BOX 832
FAR HILLS, NEW JERSEY 07931
(917) 628-6145
PETITIONER PRO SE

7018 0360 0001 1648 6368
Robert Louis Toll, Esq.
Hogan Lovells US LLP
875 Third Avenue
New York, NY 10022

